Case: 21-1317

Docufment: 39-1

Page: 1

Date Filed: 06/09/2021

April 22, 2021
**AMENDED ALD-14B
UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
C-A.No. 21-1317
SANDRA HARMON, Petitioner
VS.
DEPARTMENT OF FINANCE, Sussex Co, Delaware, et al.
(D. Del. Civ. No. l-18-cv-01021)
Present:

MCKEE, GREENAWAY, JR. and BTBAS, Circuit Judges
Submitted are:
(1)

By the Clerk for possible dismissal due to a jurisdictional defect, for
determination under 28 U.S.C. Section 1915(e)(2), or for summary
action under Third Circuit L.A.R. 27.4 and I.O.P. 10.6.;

(2)

Appellant’s Motion for Appointment of Counsel;

(3)

Appellees’ Motion to Dismiss the Appeal for Lack of Jurisdiction;

(4)

Appellant’s Response to Motion to Dismiss;

(5)

Appellant’s argument in support of the appeal;

(6)

Appellant’s Response to Court’s March 2, 2021 letter advising of
possible dismissal;

(7)

Appellees’ Response to Court’s March 2, 2021 letter advising of
possible dismissal;

(8)

Appellees’ Supplemental Response to Court’s March 2, 2021 letter
advising of possible dismissal;

(9)

Appellant’s Letter Marked Urgent dated 03/11/2021 with Exhibit in
Reply to Appellee's Response;

Case: 21-1317

RE:

Document: 39-1

Page: 2

Date Filed: 06/09/2021

Harmon v. Department of Finance of Sussex County
C.A. No. 21-1317
Page 2
(10)

Appellant’s Letter Marked Urgent dated 03/11/2021 labeled
Corrected in Reply to Appellees;

(11)

Appellant’s Reply to Response by Appellees to Legal Division
Letter;

(12)

Supplement to Appellant's Reply to Appellees’ Response to Letter
advising of Possible Jurisdictional Defect;

(13)

Appellant’s Emergency Motion for Ex Parte Interim Relief While
Appeal is Pending;

(14)

Appellant’s “Motion to add my Children and Sisters below to this
case as Appellants & Complaintants upon my death due to my recent
CT scan results showing cancer in both my colon and lungs or the
immediate appointment of counsel to protect me & my children
interest in my private property”, filed April 19, 2021

**(15) Appellees’ response in opposition thereto, filed April 22, 2021;
and
**(16) Appellant’s reply, filed April 22,2021
in the above-captioned case.
Respectfully,
Clerk
ORDER
The Appellees’ motion to dismiss for lack of appellate jurisdiction is granted. The
jurisdiction of federal courts of appeal generally is limited to review of “final decisions of
the district courts of the United States.” 28 U.S.C. § 1291. “A ‘final decision’ is ‘one
which ends the litigation on the merits and leaves nothing for the court to do but execute

<■'

f
Case: 21-1317

Document: 39-1

Date Filed: 06/09/2021

Page: 3

the judgment-™ Weber v. McGrogan, 939 F.3d 232,15b (id Ur. z0rT9)-(aaiion —----omitted). As the District Court decision denied the Defendants’ motion to dismiss, it did
not finally resolve the merits of the case. Nor is the order appealable under the collateral
order doctrine, see Cohen v. Beneficial Indus. Loan Corp., 337 U.S. 541,546 (1949), as
the order does not meet the criteria for application of that doctrine. See Blaylock v. City
of Philadelphia. 504 F.3d 405, 408 (3d Cir. 2007) (explaining that “an interlocutory order
of a district court may be treated as a ‘final decision’ [under § 1291] if it: (1)
conclusively determine[s] the disputed question, (2) resolve[s] an important issue
completely separate from the merits of the action, and (3) [is] effectively unreviewable on
appeal from a final judgment.’” (citation omitted). If Harmon is aggrieved by the District
Court’s order, she may appeal that order at the end of the litigation. Hannon argues that
the District Court’s February 2, 2021 order was final, because the docket was mistakenly
marked “closed” afterward. But “an administrative closure .. . has no jurisdictional
significance” and “does not result in a final order.” See Penn W. Assocs., Inc, v. Cohen,
371 F.3d 118, 128 (3d Cir. 2004) (internal citations and quotation marks omitted).
Harmon’s motions for appointment of counsel, for emergency relief pending the appeal,
and her motion to add her children and sisters to the appeal, are denied.
By the Court,
s/Joseph A. Greenaway. Jr.
Circuit Judge
Dated: 9 June 2021
AWI/CC:
SH
KJC
WFK
A True Copy: °

u<*<
Patricia S. Dodszuweit, Clerk
Certified Order Issued in Lieu of Mandate

Case l:18-cv-01021-RGA Document 43 Filed 02/02/21 Page 1 of 1 PagelD #: 500

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
SANDRA HARMON
Plaintiff,
Civil Action No. 18-1021-RGA

v.
DEPARTMENT OF FINANCE, Sussex
County, Delaware, et al.,
Defendants.

ORDER
At Wilmington this 1st day of February, 2021 .-consistent with the memorandum
opinion issued this date,
IT IS HEREBY ORDERED that:

1.

Defendants’ motion to dismiss (D.l. 7) is DENIED.

2.

Plaintiff’s motion for summary judgment (D.l. 13) remains DISMISSED.

Is/ Richard G. Andrews
UNITED STATES DISTRICT JUDGE

Case l:18-cv-01021-RGA Document 42 Filed 02/02/21 Page 1 of 7 PagelD #: 493

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
SANDRA HARMON
Plaintiff,
Civil Action No. 18-1021-RGA

v.
DEPARTMENT OF FINANCE, Sussex
County, Delaware, et al.,
Defendants.

Sandra Harmon, Hartsville, South Carolina. Pro Se Plaintiff.
Kevin J. Connors, Esquire, and Artemio C. Aranilla, II, Esquire, Marshall, Dennehey,
Warner, Coleman & Goggin, Wilmington, Delaware. Counsel for Defendants.

MEMORANDUM OPINION

February 1,2021
Wilmington, Delaware

Case l:18-cv-01021-RGA Document 42 Filed 02/02/21 Page 2 of 7 PagelD #: 494

Isl Richard" G. Andrews
ANDREWS, U.S. District Judge:
Plaintiff Sandra Harmon appears pro se. She commenced this lawsuit on July
11,2018, under 42 U.S.C. § 1983, alleging Defendants had violated her constitutional
rights. (D.l. 1).
I.

BACKGROUND
As described by the United States Court of Appeals for the Third Circuit,
Harmon owned real property in Rehoboth Beach, Delaware. In January
2018, Sussex County commenced a monition action against Harmon to
collect delinquent sewer and water bills and costs incurred when it
demolished her fire-damaged home. Harmon claims that she paid the
sewer and water bills, but that Sussex County and the individual
defendants never consulted with her about the demolition costs, failed to
give her notice of the monition action, charged excessively high interest on
the demolition costs, and sold the property at a sheriffs sale without
providing her with a reasonable time to pay the outstanding costs.

(D.l. 41-1 at 2).
On October 30, 2017, prior to the commencement of this action, Plaintiff
filed a lawsuit alleging violations of her rights under the First and Fourteenth
Amendments to peaceful enjoyment of the Rehoboth Beach property and
unlawful tactics by Sussex County government officials. Harmon v. Sussex Cty.,
Civ. No. 17-1917-RGA (D. Del.). On September 12, 2019, the Court granted
Defendants’ motion for summary judgment in Civ. No. 17-1917-RGA, and found
that there was no evidence of record: (1) to support a plausible inference of
selective enforcement of the laws and no evidence that Plaintiff was treated
differently from similarly situated individuals; (2) that Plaintiffs substantive and
procedural due process rights were violated with regard to the sale of the
2

Case l:18-cv-01021-RGA Document 42 Filed 02/02/21 Page 3 of 7 PagelD #: 495

Rehoboth Beach property; (3) to support Plaintiffs allegations of a conspiracy to
deprive African Americans of their beach property; and (4) that Defendants
interfered with the use of the Rehoboth Beach property. (Id. at D.l. 76, 77).
Plaintiff appealed, and the United States Court of Appeals for the Third Circuit
affirmed the decision on April 8, 2020. (Id. at D.l. 90).
On January 12, 2018, also before this action was commenced, the Sussex
County Department of Finance filed a monition action against Plaintiff and the
other owners of the Rehoboth Beach property for delinquent sewer and water
bills and the demolition lien. Department of Finance of Sussex County v.
Harmon Heirs, Civ. A. No. S18T-01-002 (Del. Super.) at BL-1.

On June 8,

2018, Plaintiff filed a motion to dismiss and motion for injunctive relief in the
monition action and asserted violations of her constitutional rights. Id. at BL-10.
Plaintiff sought dismissal on the grounds that Defendants violated her right to due
process, there was a dispute over the water and sewer bills, and the county had
made no attempt to arrange for payment of demolition costs. Id. On June 18,
2018, the Superior Court denied the motion and ordered that the sale could
proceed as scheduled on June 19, 2018. Id. at BL-28. The Superior Court
advised Plaintiff that she could file an objection to the sale should she elect to do
so. Id. The Rehoboth Beach property was subsequently sold at the sheriffs
sale.

1 The Court has access to the Superior Court docket via Bloomberg Law. “BL” is how
Bloomberg Law refers to docket entries.
3

Case l:18-cv-01021-RGA Document 42 Filed 02/02/21 Page 4 of 7 PagelD #: 496

Plaintiff filed this action pursuant to 42 U.S.C. 1983 on July 11,2018.
(D.l. 1).

In the instant case, Plaintiff alleges Defendants violated her right to due

process and equal protection by “engaging in arbitrary conduct with respect to
the selling of [her] property at Sheriffs Sale on June 19, 2018.” (D.l. 1 at 2).
She alleges the property was unlawfully sold and the conduct of Defendant
Jason Adkins - counsel for the “Sussex County Administration” - was
discriminatory, racist, and violates RICO.

(Id. at 2-4).

On August 10, 2019, the Court granted Defendants’ motion to dismiss on
the grounds of abstention under Younger v. Harris, 401 U.S. 37 (1971).
24).

(D.l. 23

Plaintiff appealed and the Court of Appeals vacated the judgment due to

the Court’s analysis’s relying on an outdated understanding of Younger.

(See

D.l. 41-1). The Court of Appeals expressed no opinion about whether
abstention was appropriate, whether Plaintiffs claims have merit, or whether
Defendants have other meritorious defenses.

(Id. at 4).

The Court now revisits Defendants’ motion to dismiss and Plaintiffs motion for
summary judgment.

(D.l. 7, 13).

Defendants move to dismiss on the grounds that the

Court must abstain under the Younger abstention doctrine because there remains
pending an underlying matter in Delaware State Court that continues to be actively
litigated on identical or related issues.

(D.l. 7).

Plaintiffs opposition to the motion

does not address the Younger abstention doctrine other than to state that it is clearly
inapplicable.

Instead, she asks the Court to explore the “unclean hands theory” and

the “continuing violation theory.”

(D.l. 8).

The Court takes judicial notice that the

4

Case l:18-cv-01021-RGA Document 42 Filed 02/02/21 Page 5 of 7 PagelD #: 497

Superior Court case remains pending ana is awaiting resolution. See Department of
Finance of Sussex Cty. v. Harmon Heirs, Civ. A. No. S18T-01-002 at BL-67 (Del. Super.
June 12, 2020).
II.

LEGAL STANDARDS
“Younger abstention is not analyzed under either Rule 12(b)(1) or 12(b)(6).” See

Knox v. Union Twp. Bd. ofEduc., 2015 WL 769930, at *5 n.7 (D.N.J. Feb. 23, 2015).
“Dismissal on abstention grounds without retention of jurisdiction is in the nature of a
dismissal under Fed. R. Civ. P. 12(b)(6).” Gwynedd Properties, Inc. v. Lower Gwynedd
Twp., 970 F.2d 1195, 1206 n.18 (3d Cir. 1992). Thus, “matters outside of the
pleadings are not to be considered.” Knox, 2015 WL 769930, at *5 n.7. The Court, v
however, may take judicial notice of court documents. Gwynedd Properties, 970 F.2d
at 1206 n.18
III.

DISCUSSION
A.

Younger Abstention

Defendants argue that the Court must abstain because there is a matter that
continues to be actively litigated in State Court on identical or related issues.
Defendants compare the Complaint in this action, which asserts violations of Plaintiffs
constitutional rights, to her motion to dismiss in the monition action, which also asserts
violations of her constitutional rights pertaining to the sale of the same property. (See
D.l. 7 at Ex. B (“Motion to Dismiss this Retaliatory Action and/or Transfer it to the
Federal Court Civil Action No.: 1:17 CV 01817 because it is Directly Related to this
Action that Affects my Constitutional Rights which I Elect to be Adjudicated in Federal

5

Case l:18-cv-01021-RGA Document 42 Filed 02/02/21 Page 6 of 7 PagelD #: 498

Court”)(citing “due process")),
again on the grounds of violations of her right to “procedural due process” or “due
process of law” and “equal protection” (D.l. 7 at Ex. D), the same claim she raises here.
She amended the objection, repeating the same constitutional bases.
She filed another motion to dismiss.

(Id. at Ex. F).

(Id. at Ex. G). That was followed by a petition for a

writ of mandamus contending that the statutory conditions for a monition sale were not
satisfied and that the action was not commenced and prosecuted in accordance with
the Superior Court’s Rules of Civil Procedure. Matter of Harmon, 198 A.3d 179 (Table),
2018 WL 6332269 (Del. Dec. 3, 2018).
Under the Younger abstention doctrine, a federal district court must abstain from
hearing a federal case which interferes with certain state proceedings.
Harris, 401 U.S. 37 (1971).

See Younger v.

A Younger abstention analysis requires courts to first

analyze whether the parallel state action falls within one of three “exceptional”
categories: (1) ongoing criminal prosecutions, (2) “certain civil enforcement
proceedings,” and (3) “civil proceedings involving certain orders uniquely in furtherance
of the state courts’ ability to perform their judicial functions.”

Sprint Communications,

Inc. v. Jacobs, 571 U.S. 69, 78 (2013) (cleaned up).
Proceedings in state court fall within the third Sprint category when they involve
orders “uniquely in furtherance of the state courts’ ability to perform their judicial
functions.” Id. Defendants have not shown that the monition action belongs to one of
the categories of proceedings to which Younger may apply.

“Because the defendants

do not address the threshold question of whether this case falls within any of the three

6

Case l:18-cv-01021-RGA Document 42 Filed 02/02/21 Page 7 of 7 PagelD #: 499

gYr.pptinnahnategnnftB or-ca-Kus Ihal may watr-af^-¥et//ia<?AabstRntion we conclude that
they have not shown that the Court should abstain from exercising jurisdiction.” Dowell
v. BayviewLoan Servs., LLC, 2017 WL 9486188, at *9 (M.D. Pa. May 4, 2017).
monition action is similar to a foreclosure action.

A

Courts in this Circuit have declined to

apply Younger abstention when the underlying state action is a foreclosure action,
absent a request to enjoin state proceedings because it does not fall into any of the
three categories.

See id. at *10. Accordingly, the motion to dismiss based on

Younger will be denied.
B.

Other Issues

The Court previously dismissed Plaintiffs motion for summary judgment (D.l. 13)
as moot. (D.l. 24).

It is no longer moot, but it is premature.

Thus, it will not be revived.

The Court’s review of the case in connection with the motion to dismiss suggests
that there might be other issues that should be dealt with at an early stage of the case.
But they have not been raised by the parties, and the Court will not raise them sua
sponte.
IV.

CONCLUSION
For the above reasons, the Court will deny Defendants’ motion to dismiss

the Younger abstention doctrine. (D.l. 7).

under

Plaintiff’s motion for summary judgment (D.l.

13) remains dismissed.
A separate order shall issue.

7

)

cfelPS!l‘^@lO2lP«?0An4tj<fiftWr\^8^1d &mi§ Pl^^P®$$$01&8

tisFFHE-yNffSP-STAIES-DJJSJJBjCT COURT
FOR THE DISTRICT OF DELAWARE
SANDRA HARMON,
Plaintiff,
v.

Civil Action No. 18-1021-RGA

DEPARTMENT OF FINANCE, SUSSEX
COUNTY, DELAWARE, etal.,
Defendants.

At Wilmington this

1

ORDER
day of August 2019, consistent with the

memorandum issued this date,

IT IS HEREBY ORDERED that:
1.

Defendants’ motion to dismiss (D.l. 7) is GRANTED. The Court abstains

under the younger abstention doctrine.
2.

Plaintiffs motion for summary judgment (D.l. 13) is DISMISSED as moot.

3.

The Clerk of Court is directed to CLOSE the case.

UNITED STATES/DISTRICT JUDGE

i

Case l:18-cv-01021-RGA Document 23 Filed 08/20/19 Page 1 of 8 PagelD #: 380

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
SANDRA HARMON
Plaintiff,
Civil Action No. 18-1021-RGA

v.
DEPARTMENT OF FINANCE, SUSSEX
COUNTY, DELAWARE, et al.,
Defendants.

Sandra Harmon, Hartsville, South Carolina. Pro Se Plaintiff.
Kevin J. Connors, Esquire, and Artemio C. Aranilla, II, Esquire, Marshall, Dennehey,
Warner, Coleman & Goggin, Wilmington, Delaware. Counsel for Defendants.

MEMORANDUM OPINION

August H ,2019
Wilmington,'Delaware

Case l:18-cv-01021-RGA Document 23 Filed 08/20/19 Page 2 of 8 PagelD #: 381

ANDREWsfSS/District Judge:
Plaintiff Sandra Harmon appears pro se. She commenced this lawsuit on July
11, 2018, as a civil Racketeering Influenced and Corrupt Organizations Act (“RICO”)
action and under 18 U.S.C. §§ 241, 242, which makes criminal certain civil rights
violations, and alleges violations of her constitutional rights to due process and equal
protection (D.l. 1 at 2). Before the Court is Defendants’ motion to dismiss and
Plaintiffs motion for summary judgment. (D.l. 7,13). The matters have been fully
briefed. (See D.l. 8, 9, 14, 15, 18, 20).

I.

BACKGROUND
Plaintiff alleges Defendants are violating her right to due process and equal

protection by “engaging in arbitrary conduct with respect to the selling of [her] property
at Sheriffs Sale on June 19, 2018.” (D.l. 1 at 2). Plaintiff alleges the property was
unlawfully sold and the conduct of Defendant Jason Adkins - counsel for the “Sussex
County Administration” - was discriminatory and racist. (Id. at 2-3). Plaintiff alleges
that Adkins’ conduct and those who support it violated RICO. (Id. at 4).
She explains that the Sussex County Department of Finance alleged that she
owed about on a sewer and water bill that had been paid in full with a check for about
$1,800. (Id. at 3). Defendants also alleged Plaintiff owed costs, perhaps of about
$8,300 (see id. at 3, Ifif 8,10), from a September 14, 2017 demolition. (Id.) Plaintiff
alleges that the Department added interest to the total cost of demolition and then
attempted to seek a judgment for the full cost of the demolition. (Id.). She alleges the
sale took place without the filing of a complaint, service, or notice to her and the other
1

Case l:18-cv-01021-RGA Document 23 Filed 08/20/19 Page 3 of 8 PagelD #: 382

co-owners of the property, (Id.) Plaintiff alleges, u[T]he Younger Doctrine does not
apply in this case because Defendants failed to file an initial complaint in the Superior
Court, so technically there is no case filed, no pending. The S18T-Q01-0Q2 case
number is clearly bogus, and [its] unlawful generation represents racketeering and
corruption at the hands of Sussex County Officials.” (Id. at 4).
Plaintiff seeks to enjoin Adkins “to haft his misconduct, and find him in contempt
and in violation of court rules of civil procedure," compensatory damages of $1,000,000,
and an order to rescind the Sheriff's sale, among other things. (Id. at 4-5). She also
requests counsel (Id. at 5),
The Court takes judicial notice that on January 12, 2018 (prior to the time Plaintiff
commenced this action), the Department of Finance of Sussex County filed a monitions
suit against Plaintiff and the other owners for delinquent sewer and water bills and the
demolition lien. Department of Finance of Sussex County v. Harmon Heirs, Civ. A. No.
S18T-01-002 (Del. Super.) at BL-1.1 Monition was entered on January 18, 2018, and
posted on the property on January 23, 2018. Id. at BL-6. On May 30, 2018, a notice
of the Sheriffs sale was posted at the physical entrance of the property and, on May 31,
2018, Plaintiff and the other property owners were notified by certified mail of a Sheriff’s
sale of the real estate to take place on June 19, 2018, at 9:30 a.m. Id. at BL-16, BL-17,
BL-18.

1 The Court has access to the Superior Court docket via Bloomberg Law. “BL” is how
Bloomberg Law refers to docket entries.
2

Case 1:18-cv-01021-RGA Document 23 Filed 08/20/19 Page 4 of 8 PagelD #: 383

On June 8, 2018, Plaintiff filed a motion to dismiss and motion for injunctive relief
in Civ, A. No. S18T-G1-002 alleging violations of her constitutional rights. Id. at BL-10.
On June 18, 2018, the Superior Court denied the motion and ordered that the sale could
proceed as scheduled on June 19 2018. Id. at BL-28. A notice of lis pendens was
filed on June 19, 2018 and on June 21,2018, Plaintiff filed a motion to invalidate and to
dismiss. Id. at BL-30. The property was sold to the highest bidder; Plaintiff filed an
objection to the sale, and then an amended notice of objection. Id. at BL-35, Bt-36,
BL-44. On August 9, 2018, Plaintiff filed a motion to dismiss. Id. at BL-51. On
November 7, 2018, the Superior Court stayed the matter while awaiting resolution of the
related federal civil cases Plaintiff had filed here, Civ. No. 17-1817-RGA and the instant
case, Civ. No. 18-1021-RGA; Id. at BL-51. Plaintiff then filed a petition for a writ of
mandamus in the Delaware Supreme Court to compel the Superior Court Judge to
dismiss S18T-01-002. Id. at BL-53, BL-56. The Delaware Supreme Court dismissed
the petition. Id. at BL-57. The most recent filings in the Superior Court case are an
affidavit of non-redemption filed on June 19,2019, and an amended writ filed July 11,
2019. Id. at BL-59, BL-60.
Defendants move to dismiss on the grounds that the Court must abstain under
the Younger abstention doctrine because there remains pending an underlying matter in
Delaware State Court that continues to be actively litigated on identical or related
issues. (D.l, 7). Plaintiffs opposition to the motion does not address the Younger
abstention doctrine other than to state that it is clearly inapplicable, instead, she asks

3

Case l:18-cv-01021-RGA Document 23 Filed 08/20/19 Page 5 of 8 PagelD #: 384

the Court to explore the "unclean hands theory" and the "continuing violation Iheoryrrr
(D l. 8).
il.

LEGAL STANDARDS
Younger abstention is not analyzed under either Rule 12(b)(1) or 12(b)(6), see

Knox v. Union Twp. Bd. ofEduc., 2015 WL 769930, at *5 n.7 (D.N.J, Feb. 23, 2015), but
“[dismissal on abstention grounds without retention of jurisdiction is in the nature of a
dismissal under Fed. R. Civ. P. 12(b)(6),” Gwynedd Properties, inc. v. Lower Gwynedd
Twp., 970 F.2d 1195,1206 n. 18 (3d Cir. 1992). Hence, “courts [in the District of New
Jersey] have treated [a motion to dismiss on the basis of] Younger abstention as a Rule
12(b)(6) motion to dismiss," see, e.g., Tobia v. Lakewood Bd. ofEduc., 2017 WL
1206010, at *3 (D.N.J. Mar. 31,2017), “in that matters outside of the pleadings are not
to be considered,” see Knox, 2015 WL 769930, at *5 n.7. The Court, however, may
take judicial notice of court documents. Gwynedd Properties, Inc., 970 F.2d at 1206
n.18
III.

DISCUSSION
Defendants argue that the Court must abstain because there is a matter that

continues to be actively litigated in State Court on identical or related issues.
Defendants compare the Complaint in this action, which asserts violations of Plaintiffs
constitutional rights, to her motion to dismiss in the state case, Civ. A. No. S18T-Q1-002
which also asserts violations of her constitutional rights pertaining to the sale of the
same property. (See D.l. 7 at Ex. B). Once the sale took place, Plaintiff filed an
objection, again on the grounds of violations of her right to due process and equal
4

Case l:18-cv-0102l-RGA Document 23 Filed 08/20/19 Page 6 of 8 PagelD #: 385

protection,
objection. (Id. at Ex. F). She filed yet another motion to dismiss, followed by a petition
for a writ of mandamus contending that the statutory conditions for a monition sale were
not satisfied and that the action was not commenced and prosecuted in accordance
with the Superior Court’s Rules of Civil Procedure, See Civ. A. No. S18T-01-Q02 at
BL-57. In this case, Plaintiff asks the Court to find Adkins violated the rules of civil
procedure during the course of Civ. A. No. S18T-01-0Q2.
Under the Younger abstention doctrine, a federal district court must abstain from
hearing a federal case which interferes with certain state proceedings. See Younger v.
Harris, 401 U.S. 37 (1971). Under Younger, federal courts are prevented from
enjoining pending state proceedings absent extraordinary circumstances.2 Middlesex
Cnty. Ethics Comm. v. Garden State BarAss’n, 457 U.S. 423, 437 (1982). Abstention
is appropriate only when: (1) there are ongoing state proceedings that are judicial in
nature; (2) the state proceedings implicate important state interests; and (3) the state
proceedings provide an adequate opportunity to raise the federal claims. Lazaridis v.
Wehmer, 591 F.3d 666, 670 (3d Cir. 2010). The doctrine applies to proceedings until

2 The abstention doctrine as defined in Younger v. Harris, 401 U.S. 37 (1971),
provides that federal courts are not to interfere with pending state criminal proceedings
and has been extended to civil cases and state administrative proceedings. Middlesex
Cty. Ethics Comm’n v. Garden State BarAss’n, 457 U.S. 423 (1982); Huffman v.
Pursue Ltd., 420 U.S. 592 (1975).
5

k

Case l:18-cv-0102l-RGA Document 23 Filed 08/20/19 Page 7 of 8 PagelD #: 386

all appellate iwiHi^s

unless the matter falls within one of the

Younger exceptions.3 Huffman v. Pursue Ltd., 420 U.S. at 608.
The Court takes judicial notice that the monition proceeding remains pending in
the Superior Court. In additional to compensatory damages, the relief sought by
Plaintiff includes injunctive relief to “half the misconduct of Adkins.4 She also asks the
Court to rescind the Sheriffs sale.
The Younger elements have been met and none of the its exceptions apply.
First, there are pending State court proceedings that directly relate to Plaintiffs dispute,
indeed, Plaintiff raises the same issues when seeking to dismiss Civ. A. No. S18T-G1002 as she does in the instant Complaint.- Second, Delaware has an important interest
in resolving real estate lien issues and Sheriffs sales, and a ruling in the Superior Court
proceeding implicates the important interest of preserving the authority of the state s
judicial system. See, e.g., Gray v. Pagano, 287 F. App'x 155 (3d Cir. 2008) (court
abstained under Younger doctrine where plaintiffs sought a declaration that the judge
was not authorized to nullify transfer of title and for an order enjoining the sheriff from
conducting a sheriffs sale); Shipley v. New Castle Cty., 2008 WL 4330424 (D. Del.

3 Exceptions to the Younger doctrine exist where irreparable injury is “both great
and immediate," Younger, 401 U.S. at 46, where the state law is ‘‘flagrantly and patently
violative of express constitutional prohibitions,” id. at 53, or where there is a showing of
“bad faith, harassment, or... other unusual circumstances that would call for equitable
relief.” id. at 54.
4 The jurisdictional limitation of the Anti-Injunction Act, 28 U.S.C. § 2283, is inapplicable
to cases brought pursuant to 42 U.S.C. § 1983. See Mitchum v. Foster, 407 U.S. 225
(1972). Plaintiff alleges violations of her constitutional rights, and her Complaint is
liberally construed as raising claims under 42 U.S.C. § 1983.
6

Case l:18-cv-01021-RGA Document 23 Filed 08/20/19 Page 8 of 8 PagelD #: 387

ggpi

mai pgtate tax and lien issue proceedings important state

interests under Younger doctrine); Prindable v. Association of Apartment Owners of :
2987 Kalakaua, 304 F. Supp. 2d 1245, 1262 (D. Haw. 2003) (finding foreclosure and
ejectment proceedings important state interests under Younger doctrine). Finally,
Plaintiff has an adequate opportunity to raise her claims in state court, and Delaware
courts provide adequate forums for review of her claims. Accordingly, pursuant to
Younger and its progeny the Court must abstain. See Pennzoil Co. v. Texaco, Inc.,
481 U.S. 1,15 (1987) (stating that Younger abstention is favored even after the plaintiffs
failed to raise their federal claims in the ongoing state proceedings).
IV.

CONCLUSION
For the above reasons, the Court will: (1) grant Defendants’ motion to dismiss

and abstain under the Younger abstention doctrine (D.l. 7); and (2) dismiss as moot
Plaintiffs motion for summary judgment (D.l. 13).5
A separate order shall issue.

5 Because the Court must abstain under the Younger abstention doctrine, it does not
address the merits of Plaintiffs motion for summary judgment.
7

